BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.0.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Petition for Writ of
Certiorari in Dignity Health dlbla Mercy San Juan
Medical Center v. Evan Minton, were sent via Next
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Next Day Service, and e-mail to the
following parties listed below, this 13th day of March,
2020:
Lindsey Catherine Barnhart
Covington & Burling LLP
Salesforce Tower
415 Mission Street, Suite 5400
San Francisco, CA 94105
(415) 591-6000
lbarnhart@cov.com

Counsel for Respondent
Jeffrey M. Harris
Counsel of Record
Steven C. Begakis
Alexa R. Baltes
Consovoy McCarthy PLLC
1600 Wilson Boulevard
Suite 700
Arlington, VA 22201
(703) 243-9423
jeff@consovoymccarthy.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive

Franklin Square

Suite 102

1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.0.

Barry S. Landsberg
Harvey L. Rochman
Joanna S. Mccallum
Craig S. Rutenberg
Manatt, Phelps & Phillips, LLP
2049 Century Park East
Suite 1700
Los Angeles, CA 90067
Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 13, 2020.

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

